I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

N U N L E Y, Z A VI O N
P etiti o n er
vs.

N o:

2 0- 7 9 7 3

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
M a y 1 3, 2 0 2 1
c c:
J A M E S M A T T H E W W RI G H T
O F FI C E O F T H E F E D E R A L P U B LI C
DEFE N DE R
5 0 0 S. T A Y L O R
S UI T E 1 1 0
A M A RI L L O, T X 7 9 1 0 9

